                       NaTIONAL SCIENCE FOUNDATION
                         WASHINGTON, D.C. 20550




     Off ice of
 Inspector General



MEMORANDUM




                         -
       DATE :
 ----.FROM.:
..


        ,VIA:


                                           1
                               -


     SUBJECT: Allegation of&

         TO:    Case No. I92120030

On December 10, 1992, we received

                  er in t h e w ,
teaching a chemistry class by samittihg the social security number
                    her fiance.
                  nt no.             .
                                         his-            allegedly

At our request, officials in           ~nternal Audit Department
investigated the allegation. They found inconsistent evidence
regarding Mr.e
             s
             i
             c
             er
              (              duties, but did find that he prepared
        i   n fact taught the chemistry class, though
paid for doing so.
                                                       rew was
a course utline and classroom activities. They also found that
MS. d
                                    ackground is in architecture,
not chemistry, and due to t e
substantive involvement with the
credit the questioned salary payments, totaling $2,206.39, to NSF.
On August 24, 1993, we issued a memorandum to NSF1s Division of
Financial Management, re esting that they ensure the crediting of
the funds. In addition,%      officials informed us that they will
implement systemic reforms to                such occurrences, and
will also issue a reprimand to               the grant's Principal
Investigator, for allowing Mr.
This case is closed.
